       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684
December 14, 2010

Report Number: A-01-10-00506

Mr. James J. Kenney
Director of Internal Audit
Lahey Clinic
41 Mall Road
Burlington, MA 01805

Dear Mr. Kenney:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Lahey Clinic’s Claims for Outpatient Procedures
That Included the Replacement of Medical Devices for Calendar Years 2007 and 2008. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-4336 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-10-00506 in all correspondence.

                                             Sincerely,



                                             /Michael J Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. James J. Kenney


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Center for Medicare & Medicaid Services
601 East 12th Street Room 235
Kansas City, Missouri 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF LAHEY CLINIC’S CLAIMS
FOR OUTPATIENT PROCEDURES THAT
  INCLUDED THE REPLACEMENT OF
 MEDICAL DEVICES FOR CALENDAR
      YEARS 2007 AND 2008




                       Daniel R. Levinson
                        Inspector General

                         December 2010
                         A-01-10-00506
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, pays for hospital outpatient services under a prospective payment system.

Medical Device Replacement

Common medical devices implanted during outpatient procedures include pacemakers,
cardioverter defibrillators, and neurostimulators. Occasionally, devices need to be replaced.
Providers may receive full or partial credit from manufacturers for devices that are covered under
warranty or replaced because of recalls. To offset these credits, Medicare reduces the payment
for the replacement of a device if (l) the device is replaced without cost to the provider, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device.

For services furnished on or after January 1, 2007, CMS established reporting requirements for a
provider that incurs no cost or that receives full credit for a replaced device. In such
circumstances, CMS requires the provider to report the modifier "FB" and to report reduced
charges on a claim that includes a procedure code for the insertion of a replacement device. For
services furnished on or after January 1,2008, CMS also requires the provider to report the
modifier "FC" on a claim that includes a procedure code for the insertion of a replacement
device ifthe provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device.

Lahey Clinic

Lahey Clinic (the Clinic) is a 317 -bed acute-care hospital located in Burlington, Massachusetts.
National Heritage Insurance Company (NHIC) processes and pays the Clinic' s Medicare claims
for outpatient services. NHIC paid the Clinic a total of $3.7 million for 210 claims for outpatient
procedures that included the replacement of medical devices during calendar years 2007 and
2008.

OBJECTIVE

Our objective was to determine whether the Clinic complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate modifier and charges to reflect the credits received.

SUMMARY OF FINDINGS

The Clinic did not fully comply with Medicare requirements for obtaining credits available from
manufacturers for replaced medical devices and for reporting the appropriate modifier and
charges to reflect the credits received. For 27 of 30 sampled claims for calendar years 2007 and
2008, there were no available credits or the credit was a partial credit received from the


                                                 1
manufacturer that did not represent at least 50 percent of the cost of the replacement device and
therefore were not reportable. For the three remaining sampled claims, credits were available
from manufacturers and reportable; however:

   • 	 For two claims, the Clinic did not obtain credits that were available under the terms of the
       manufacturers' warranties.

   • 	 For one claim, the Clinic obtained full credit but did not report the "FB" modifier or
       reduced charges on the claim to alert NHIC that a payment adjustment was needed.

The Clinic' s review (which we verified) of the 180 remaining claims for the audit period found
that the Clinic had received full credits for the replaced devices on 7 claims. However, the
Clinic did not report the "FB" modifier or reduced charges on these claims to alert NHIC that
payment adjustments were needed.

For the three claims that we identified and the seven claims that the Clinic identified, the Clinic
was overpaid $121 ,268. Moreover, for these claims, beneficiaries incurred $4,464 in additional
copayment costs. These overpayments and additional copayment costs occurred because the
Clinic did not have controls to (1) obtain credits available under the terms of manufacturers'
warranties or (2) report the appropriate modifiers and charges to reflect credits due from
manufacturers.

RECOMMENDATIONS

We recommend that the Clinic:

   • 	 adjust and resubmit to NHIC the 10 erroneous claims to correct any outstanding portion
       of overpayments totaling $121 ,268 and overstated copayment costs totaling $4,464,

   • 	 determine whether it could have obtained credits for the remaining 173 claims (the 180
       claims that we did not review less the 7 claims for which the Clinic found that it had
       received full credits) and resubmit the claims as appropriate, and

   • 	 establish procedures to obtain credits available from manufacturers and report to NHIC
       the credits that the Clinic was entitled to, irrespective of whether the credits were
       obtained, for replaced devices in accordance with Medicare requirements.

LAHEY CLINIC'S COMMENTS

In written comments to the draft report, the Clinic concurred in part and disagreed in part with
our recommendations. Regarding our first recommendation, the Clinic stated that 8 of 10
erroneous claims were properly adjudicated by NHIC in late July 2010. For 2 of the 10 claims,
the manufacturer did not issue a credit to the Clinic. The Clinic has requested credits on these 2
claims and, if credits are received, the claims will be re-processed. In addressing our second
recommendation, the Clinic stated that it will perform a second review of the 173 claims to
ensure that all credits received have been reflected although the Clinic believes it complied with

                                                 11
all applicable requirements regarding these claims. In response to our third recommendation, the
Clinic stated that it has established procedures to ensure that it receives all applicable credits and
that claims are processed correctly. The Clinic' s comments are included in their entirety as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding the Clinic' s comments on our first recommendation, as required by Section 2103 of
CMS ' s Provider Reimbursement Manual, Medicare providers are expected to pursue free
replacements or reduced charges for devices that fail while covered under a manufacturer
warranty. The credits or payments that could have been obtained must be reflected as a
reduction of the cost of the equipment. For two claims the Clinic did not obtain credits for the
replaced devices that were available under the terms of the manufacturers' warranties. For these
claims, the Clinic should adjust and resubmit to NHIC the two claims to reflect credits that could
have been obtained. Regarding the Clinic's comments on our second recommendation, we did
not recommend that the Clinic review the remaining 173 claims to ensure that all credits received
have been reflected. Rather, we recommended the Clinic review the 173 claims to.determine
whether it could have obtained credits and, if so, resubmit the claims. Lastly, we clarified our
third recommendation to emphasize that the Clinic should report to NHIC the credits that the
Clinic was entitled to, irrespective of whether the credits were obtained, for replaced devices in
accordance with Medicare requirements.




                                                  111
                                                     TABLE OF CONTENTS 




INTRODUCTION ............................... ..... .. ........................................... .. ..... ...................... 1 


          BACKGROUND ................... .... ....... ... ...... ..... ... ...... ................. .. ..... ................. ....... 1 

              Hospital Outpatient Prospective Payment System ...................................... 1 

              Credits for Replaced Medical Devices ........................................................ 1 

              Reimbursement for Medical Device Replacement ...................................... 1 

              Lahey Clinic ...... ... ..... ........................ ............ ....... ... ..................... ... ...... ....... 2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ................................................... 2 

               Objective .. ....................... ... ...... .... .... ................................. ..... .......... ... ..... .. ..2 

               Scope........ ......................... .. ......................... ........ ..................... ........ ........... 2 

               Methodology .................. ....... .... ........... ..... .......... ................. ....... ....... ... ....... 3 


FINDINGS AND RECOMMENDATIONS .................................................................... 4 


          MEDICARE REQUIREMENTS ... .. ..................................... ... .. ...... .................... .... 4 

               Prudent Buyer Principle .................. ......... ..... ...... ..................... .......... ..... ..... 4 

               Coding Requirements for Medical Device Credits .................. .. ................. 5 


          NONCOMPLIANCE WITH MEDICARE REQUIREMENTS .................. ........... 5 

              Clinic Did Not Obtain Available Credits .............................. ...... ................. 5 

              Clinic Did Not Report That It Received Credits .......................... .............. . 6 


          MEDICARE OVERPAYMENTS ...................................... .. .................... .............. 6 


          RECOMMENDATIONS ................................... ............ .................................. ........ 7 


          LAHEY CLINIC'S COMMENTS ........................ .............. .................................... 7 


          OFFICE OF INSPECTOR GENERAL RESPONSE .............................................. 7 


APPENDIX

          LAHEY CLINIC'S COMMENTS




                                                                         IV
                                             INTRODUCTION 


BACKGROUND 


The Medicare program, established by Title XVIII of the Social Security Act (the Act), provides
health insurance coverage to people aged 65 and over, people with disabilities, and people with
end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. Part B of Title XVIII provides supplementary medical insurance for medical
and other health services, including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospital outpatient departments. 1

Hospital Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the Medicare,
Medicaid, and SCHIP Balanced Budget Refinement Act of 1999, P.L. No. 106-113, CMS
implemented an outpatient prospective payment system (OPPS) for hospital outpatient services.
The OPPS was effective for services furnished on or after August 1, 2000. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the ambulatory payment classification (APC) group to which the service is assigned. CMS uses
Healthcare Common Procedure Coding System codes and descriptors to identify and group the
services within each APC group. All services and items within an APC group are comparable
clinically and require comparable resources. Under the OPPS, outlier payments are available
when exceptionally costly services exceed established thresholds.

Credits for Replaced MedicalDevices

Common medical devices implanted during outpatient procedures include pacemakers,
cardioverter defibrillators, and neurostimulators. Occasionally, devices need to be replaced.
Providers may receive full or partial credit from manufacturers for devices that are covered under
warranty or replaced because of recalls. Warranties vary among manufacturers and product lines
but commonly cover replaced devices on a pro rata basis depending on the age of the device.
Providers generally must send replaced devices back to the manufacturers within a specified time
after the replacement procedures to obtain credits.

Reimbursement for Medical Device Replacement

To offset the credits that a provider receives for costly devices replaced during outpatient
procedures, Medicare generally requires payment adjustments. Specifically, for 31 types of


I Section 911 ofthe Medicare Prescription Drug, Improvement, and Modernization Act of2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries to Medicare administrative contractors (MAC)
between October 2005 and October 2011. Most, but not all, of the MACs are fully operational. For jurisdictions
where the MACs are not fully operational, fiscal intermediaries continue to process Part B outpatient claims. For
purposes of this report, the term "Medicare contractor" means the fiscal intermediary or MAC, whichever is
applicable.
devices that fall within 21 APCs, Medicare reduces the payment for the replacement of the
device if (l) the device is replaced without cost to the provider, (2) the provider receives full
credit for the cost of the replaced device, or (3) the provider receives partial credit equal to or
greater than 50 percent of the cost of the replacement device.

For services furnished on or after January 1,2007, CMS established reporting requirements for a
provider that incurs no cost or that receives full credit for a replaced device. In such
circumstances, CMS requires the provider to report the modifier "FB" and to report reduced
charges on a claim that includes a procedure code for the insertion of a replacement device.2 For
services furnished on or after January 1,2008, CMS also requires the provider to report the
modifier "FC" on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Providers must use these modifiers as required to ensure that Medicare
makes the appropriate payment adjustments.

In the preamble to the regulation implementing the billing requirements for device replacement
credits (71 Fed. Reg. 68072 (Nov. 24,2006)), CMS stated that payment adjustments were
consistent with section 1862(a)(2) of the Act, which excludes from Medicare coverage an item or
service that neither the beneficiary nor anyone on his or her behalf has an obligation to pay.
According to CMS, payment of the full APC payment rate when a device was replaced under
warranty or when there was a full credit for the price of the replaced device effectively results in
Medicare payment for a noncovered item.

Lahey Clinic

Lahey Clinic (the Clinic) is a 317-bed acute-care hospital located in Burlington, Massachusetts.
As the Medicare contractor for hospitals in Massachusetts, National Heritage Insurance
Company (NHIC) processes and pays the Clinic's claims for Medicare outpatient services. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Clinic complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate modifier and charges to reflect the credits received.

Scope

Our audit covered $3.7 million in Medicare payments to the Clinic for 210 claims for outpatient
procedures that included the replacement of any of the 31 specified types of medical devices.



2 The provider's failure to report reduced charges on a claim with the "FB" modifier could result in excessive or
unwarranted outlier payments.

3   NHIC became a MAC on May 18, 2009.


                                                          2

The 210 claims had dates of service during calendar years (CY) 2007 and 2008.During this
period, the Clinic submitted only two outpatient claims with "FB" modifiers. 4

We limited our internal control review to the Clinic's controls related to (1) preparing and
submitting Medicare claims for procedures that included the replacement of medical devices and
(2) identifying and obtaining credits and reporting that manufacturers provided credits for
medical devices that were either covered under warranty or recalled.

We conducted our fieldwork at the Clinic in Burlington, Massachusetts, and at three medical
device manufacturers in St. Paul, Minnesota, from February through June 2010. We also
contacted NHIC.

Methodology

To accomplish our objective, we:

      • 	 reviewed applicable Federal laws, regulations, and guidance;

      • 	 extracted the Clinic's outpatient paid claim data from CMS's National Claims History
          file for CYs 2007 and 2008;

      • 	 developed a computer application to identify outpatient claims that included procedures
          for the replacement of any of the 31 specified types of medical devices and identified 210
          claims;

      • 	 selected a judgmental sample of 30 of the 210 claims and reviewed the beneficiaries'
          medical records, accounts payable invoices, and manufacturers' warranties to determine
          whether the Clinic should have submitted the claims with the applicable modifier and
          reduced charges;

      • 	 reviewed the Clinic's procedures for identifying and obtaining credits and reporting on its
          Medicare claims that the manufacturers provided credits for replaced devices;

      • 	 interviewed officials from selected device manufacturers that conducted business with the
          Clinic to identify their requirements for issuing credits and obtained lists of credits issued
          to the Clinic to determine whether Medicare payment adjustments were needed;

      • 	 verified the results of the Clinic's self-initiated review of the 180 remaining claims in the
          population;

      • 	 reviewed adjusted claims that the Clinic resubmitted to NHIC;

      • 	 calculated the correct payments for those claims for which payment adjustments were
          needed; and

4   CMS did not require providers to report the "FC" modifier on claims until January 1,2008.


                                                          3

   • 	 discussed the results of our review with Clinic officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Clinic did not fully comply with Medicare requirements for obtaining credits available from
manufacturers for replaced medical devices and for reporting the appropriate modifier and
charges to reflect the credits received. For 27 of the 30 sampled claims for CYs 2007 and 2008,
there were no available credits or the credit was a partial credit received from manufacturers that
did not represent at least 50 percent of the cost of the replacement devices and therefore were not
reportable. For the three remaining sampled claims, credits were available from manufacturers
and reportable; however:

   • 	 For two claims, the Clinic did not obtain credits that were available under the terms of the
       manufacturers' warranties.

   • 	 For one claim, the Clinic obtained full credit but did not report the "FB" modifier or
       reduced charges on the claim to alert NHIC that a payment adjustment was needed.

The Clinic's review (which we verified) of the 180 remaining claims for the audit period found
that the Clinic had received full credits for the replaced devices on 7 claims. However, the
Clinic did not report the "FB" modifier or reduced charges on these claims to alert NHIC that
payment adjustments were needed.

For the three claims that we identified and the seven claims that the Clinic identified, the Clinic
was overpaid $121,268. Moreover, for these claims, beneficiaries incurred $4,464 in additional
copayment costs. These overpayments and additional copayment costs occurred because the
Clinic did not have controls to (1) obtain credits available under the terms of manufacturers'
warranties or (2) report the appropriate modifiers and charges to reflect credits due from
manufacturers.

MEDICARE REQUIREMENTS

Prudent Buyer Principle

Under 42 CFR § 413.9, "All payments to providers of services must be based on the reasonable
cost of services ...." CMS' s Provider Reimbursement Manual, part 1, section 2102.1, states:
"Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed
what a prudent and cost conscious buyer pays for a given item or service. If costs are determined




                                                 4

to exceed the level that such buyers incur, in the absence of clear evidence that the higher costs
were unavoidable, the excess costs are not reimbursable under the program."

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example: "Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for
full or partial credits available under the terms of the warranty covering the replaced equipment.
The credits or payments that could have been obtained must be reflected as a reduction of the
cost of the equipment."

Coding Requirements for Medical Device Credits

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost ofthe replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and in its Medicare Claims
Processing Manual (the Manual) explains how a provider should report no-cost and reduced-cost
devices under the OPPS. For services furnished on or after January 1,2007, CMS requires the
provider to report the modifier "FB" and reduced charges on a claim that includes a procedure
code for the insertion of a replacement device if the provider incurs no cost or receives full credit
for the replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device (the Manual,
chapter 4, § 61.3.1). If the provider receives full credit from the manufacturer for a replaced
device that is less expensive than the replacement device, the provider must report a charge that
represents the difference between its usual charge for the device being implanted and its usual
charge for the device for which it received credit (the Manual, chapter 4, § 61.3.2).

For services furnished on or after January 1, 2008, CMS requires the provider to report the
modifier "FC" on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Partial credits for less than 50 percent of the cost of a replacement
device need not be reported with any modifier.

NONCOMPLIANCE WITH MEDICARE REQUIREMENTS

Clinic Did Not Obtain Available Credits

For 2 ofthe 30 claims that we reviewed, the Clinic did not obtain credits for replaced devices
that were available under the terms ofthe manufacturers' warranties. For example, according to
the beneficiary'S medical records for one claim, the device needed to be removed because the
battery was depleted. This device was replaced less than 3 years after insertion and thus was




                                                  5

eligible for full credit. The Clinic should have obtained the credit, used the appropriate modifier
and charges on its claim, and received a reduced payment.

Overpayments of $42,333 for the two claims occurred because the Clinic did not have controls to
obtain credits available under the terms of manufacturers' warranties. Specificaliy, the Clinic
did not follow the manufacturers' procedures, such as returning the devices within a specified
number of days after their removal, to obtain the available credits.

Clinic Did Not Report That It Received Credits

For 1 of the 30 claims that we reviewed, the Clinic received full credit for a replaced device but
did not report the "FB" modifier or reduced charges on its claim. According to the beneficiary'S
medical records, the manufacturer recalled the device about 3 years after its insertion. Under the
terms of the recall, the manufacturer provided full credit for the cost of the replaced device.
Therefore, this claim should have been submitted with the "FB" modifier and reduced charges to
alert NHIC that a payment reduction was needed.

  After our initial contact, the Clinic initiated a review of the 180 claims that we did not review. 5
  The Clinic found that it had received full credits for replaced devices for 7 of the 180 claims but
. had not reported the credits in accordance with Medicare requirements. Through information
  provided to us by the Clinic and selected medical device manufacturers, we verified the Clinic's
  results. These seven claims should have been submitted with the "FB" modifier and reduced
  charges to alert NHIC that payment reductions were needed.

Overpayments of $78,93 5 for the eight claims (one claim that we identified and seven claims that
the Clinic identified) occurred because the Clinic did not have controls for reporting medical
device credits received from manufacturers. 6 Specifically, the Clinic did not have procedures for
coordinating functions among the various departments (i.e., accounts payable, patient accounts,
and Medicare billing) to ensure that it submitted claims with the appropriate modifier and
reduced charges to initiate reduced payments for credits received from manufacturers.

MEDICARE OVERPAYMENTS

For the three claims that we identified and the seven claims that the Clinic identified, the Clinic
was overpaid $121,268. Moreover, for these claims, beneficiaries incurred $4,464 in additional
copayment costs.




5 The Clinic' s review did not include determining whether it should have obtained available credits. 

6 During our review, the Clinic adjusted and resubmitted the eight claims to NHIC. Although the Clinic correctly 

reported the "FB" modifier on the adjusted claims, it did not report reduced charges. As a result, the adjusted claims 

did not fully resolve the overpayments that we identified. 



                                                           6

RECOMMENDATIONS

We recommend that the Clinic:

   • 	 adjust and resubmit to NHIC the 10 erroneous claims to correct any outstanding portion
       of overpayments totaling $121 ,268 and overstated copayment costs totaling $4,464,

   • 	 determine whether it could have obtained credits for the remaining 173 claims (the 180
       claims that we did not review less the 7 claims for which the Clinic found that it had
       received full credits) and resubmit the claims as appropriate, and

   • 	 establish procedures to obtain credits available from manufacturers and report to NHIC
       the credits that the Clinic was entitled to, irrespective of whether the credits were
       obtained, for replaced devices in accordance with Medicare requirements.

LAHEY CLINIC'S COMMENTS

In written comments to the draft report, the Clinic concurred in part and disagreed in part with
our recommendations. Regarding our first recommendation, the Clinic stated that 8 of 10
erroneous claims were properly adjudicated by NHIC in late July 2010. For 2 of the 10 claims,
the manufacturer did not issue a credit to the Clinic. The Clinic has requested credits on these 2
claims and, if credits are received, the claims will be re-processed. In addressing our second
recommendation, the Clinic stated that it will perform a second review of the 173 claims to
ensure that all credits received have been reflected although the Clinic believes it complied with
all applicable requirements regarding these claims. In response to our third recommendation, the
Clinic stated that it has established procedures to ensure that it receives all applicable credits and
that claims are processed correctly. The Clinic's comments are included in their entirety as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding the Clinic' s comments on our first recommendation, as required by Section 2103 of
CMS ' s Provider Reimbursement Manual, Medicare providers are expected to pursue free
replacements or reduced charges for devices that fail while covered under a manufacturer
warranty. The credits or payments that could have been obtained must be reflected as a
reduction of the cost of the equipment. For two claims the Clinic did not obtain credits for the
replaced devices that were available under the terms of the manufacturers' warranties. For these
claims, the Clinic should adjust and resubmit to NHIC the two claims to reflect credits that could
have been obtained. Regarding the Clinic' s comments on our second recommendation, we did
not recommend that the Clinic review the remaining 173 claims to ensure that all credits received
have been reflected. Rather, we recommended the Clinic review the 173 claims to determine
whether it could have obtained credits and, if so, resubmit the claims. Lastly, we clarified our
third recommendation to emphasize that the Clinic should report to NHIC the credits that the
Clinic was entitled to, irrespective of whether the credits were obtained, for replaced devices in
accordance with Medicare requirements.




                                                   7
APPENDIX 

                                   APPENDIX: LAHEY CLINIC COMMENTS                                           Page 1 of2
·: .",



             j Lahey
                                                                                Lahey Clinic Medical Center           I    P 781 744.5100
                                                                                41 Mall Road                                www.lahey.org


         -     eLI N I C                                                        Burlington, MA 01805



                                                                          ;\ tNlching hospital ofT"fi.\" Un;vc>:tity School a/Medicine




             November 24, 2010

             Report Number: A -01-10-00506

             Mr. Michael J. Armstrong
             Regional Inspector General for Audit Services
             Department of Health & Human Services
             Office of Inspector General
             John F. Kennedy Federal Building
             Room 2425
             Boston, MA 02203

             Dear Mr. Armstrong:

             Lahey Clinic Hospital, Inc. ("Lahey Clinic") is in receipt of the U.S. Department of
             Health & Human Services, Office ofInspector General ("OIG"), draft report entitled
             Review ofLahey Clinic's Claims for Outpatient Procedures that Included the
             Replacement ofMedical Devices for Calendar Years 2007 and 2008. Lahey Clinic's
             response to the OIG's recommendations are set forth below, in a format that mirrors the
             format in your letter.

             Recommendation #1: Adjust and resubmit to NHIC the 10 erroneous claims to correct
             any outstanding portion ofoverpayments totaling $121,268 and overstated copayment
             costs totaling $4,464.

             Lahey Clinic followed Medicare's billing criteria in submitting claims based on
             information available at the time of billing. When Lahey Clinic determined that a
             retumed device credit was received, claims were adjusted in accordance with Medicare
             regulations. Eight of these claims were properly adjudicated byNHIC in late July 2010 .

             For two of the 10 claims, the manufacturer did not issue a credit to Lahey Clinic. Lahey
             Clinic has requested any and all credits that may be owed on these two claims and once
             received, the claims will be re-processed as appropriate.

              Recommendation #2: Determine whether it should have obtained credits for the
             . remaining 173 claims (the 180 claims that we did not review less the 7 claims for which
               the Clinic found it had received fl·tll credits) and resubmit the claims as appropriate.

             As is pointed out in the OIG draft report, Lahey Clinic had previously reviewed the 173
             claims. As a result ofreceiving this recommendation, we have decided to perfonn a
             second review to ensure that all credits received have been reflected. Lahey Clinic will
             adjust all claims that received device credits as a result ofthis second review.
                                                                                     Page 2 of2


As the OIG is aware, during the time period covered by the 173 claims, Lahey Clinic' s
process for retuming explanted medical devices to the manufacturers was to place the
explanted medical devices in specifically identifi ed and dedicated bins for the
manufacturers' staff (sales/teclmician) to retrieve. Lahey Clinic and the manufacturers'
representatives adhered to this process during this time period ... The manufacturers
evaluated explanted medical devices from Lahey Clinic to determine whether credits
would be processed to Lahey Clinic. Therefore, Lahey Clinic believes it complied with
all applicable requirements regarding the 173 claims. Lahey Clinic cannot explain why a
manufacturer has stated that a number of medical devices were not received by the
manufacturer.

Recommendation #3: Establish procedures to obtain credits available from
manufacturers and report to eMS the credits obtained for replaced devices in
accordance with Medicare requirements.

As is pointed out in the draft report, Lahey Clinic has established procedures to ensure
that Lahey Clinic receives all applicable credits and that claims are processed conectly. It
deserves noting that the device manufacturers have historically taken weeks and even
months to detennine and then issue a notice of a credit. Due to this great length of time,
the hospital has been sUbmitting initial claims without the benefit of knowledge of a
future credit. Once the manufacture issues Lahey Clinic a credit, a corrected claims is
generated to correct any overpayment. We would very much like to continue to work
with manufacturers and CMS so that credits can be identified in time for a conect first
claim.

NHIC Medicare is stmggling with how to re-process these explant claims where credits
have been received, especially, in the situation where two medical devices (for instance,
pacemaker and lead) are involved, but only one of those devices receives a credit.
Medicare is adjusting the entire claim since the CMS guidance indicates that the modifier
needs to be placed on the procedure that includes both devices . This results in the hospital
being underpaid for the services rendered.

In conclusion, as was conveyed to the OIG during the audit, Lahey Clinic has adjusted
claims when a manufacturer credit was received. Lahey Clinic has also established
procedures that ensure Lahey Clinic will continue to submit accurate claims when
explanted device credits are received. Lahey Clinic will continue to work closely with the
manufacturers that bear the burden of determining and issuing credit amounts for
replaced devices that Lahey Clinic has returned. Lahey Clinic looks forward to working
with manufactures and NHIC Medicare in efforts to improve the process, timeliness and
accuracy of claims and payment for future explanted device cases ..

Sincerely,


             9-- -
               C __ •
                         J/
                        /Y:>"'~~

                                . L - -­
James J. Kelmey              ­
Director of Internal Audit
Corporate Compliance Officer
